No. 21-12

FEDERAL ELECTION COMMISSION,
Appellant,
Vv.
TED CRUZ FOR SENATE, et al.,

Appellees.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, John D. Ohlendorf, a
member of the Supreme Court Bar, certify that the MOTION TO AFFIRM OR
DISMISS in the above entitled case complies with the typeface requirements
of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point
for the text and 10 point for the footnotes, and that this brief complies with the
word limitation of Supreme Court Rule 33.1(g)(ii), containing 8,986 words, ex-

cluding the parts that are exempted by Supreme Court Rule 33.1(d).

Date: August 5, 2021 Y Le —_

“John D. Ohlendorf
